<html>
<title> - THE MUSLIM BROTHERHOOD'S GLOBAL THREAT</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]



 
                 THE MUSLIM BROTHERHOOD'S GLOBAL THREAT

=======================================================================

                                HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON NATIONAL SECURITY

                                 OF THE

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 11, 2018

                               __________

                           Serial No. 115-90

                               __________

Printed for the use of the Committee on Oversight and Government Reform





[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




        Available via the World Wide Web: http://www.govinfo.gov
                       http://oversight.house.gov
                       
                       
                       
                         _________ 

               U.S. GOVERNMENT PUBLISHING OFFICE
                   
 31-367 PDF              WASHINGTON : 2018                            
                       
                       
                       
              Committee on Oversight and Government Reform

                  Trey Gowdy, South Carolina, Chairman
John J. Duncan, Jr., Tennessee       Elijah E. Cummings, Maryland, 
Darrell E. Issa, California              Ranking Minority Member
Jim Jordan, Ohio                     Carolyn B. Maloney, New York
Mark Sanford, South Carolina         Eleanor Holmes Norton, District of 
Justin Amash, Michigan                   Columbia
Paul A. Gosar, Arizona               Wm. Lacy Clay, Missouri
Scott DesJarlais, Tennessee          Stephen F. Lynch, Massachusetts
Virginia Foxx, North Carolina        Jim Cooper, Tennessee
Thomas Massie, Kentucky              Gerald E. Connolly, Virginia
Mark Meadows, North Carolina         Robin L. Kelly, Illinois
Ron DeSantis, Florida                Brenda L. Lawrence, Michigan
Dennis A. Ross, Florida              Bonnie Watson Coleman, New Jersey
Mark Walker, North Carolina          Raja Krishnamoorthi, Illinois
Rod Blum, Iowa                       Jamie Raskin, Maryland
Jody B. Hice, Georgia                Jimmy Gomez, Maryland
Steve Russell, Oklahoma              Peter Welch, Vermont
Glenn Grothman, Wisconsin            Matt Cartwright, Pennsylvania
Will Hurd, Texas                     Mark DeSaulnier, California
Gary J. Palmer, Alabama              Stacey E. Plaskett, Virgin Islands
James Comer, Kentucky                John P. Sarbanes, Maryland
Paul Mitchell, Michigan
Greg Gianforte, Montana
Vacancy

                     Sheria Clarke, Staff Director
                    William McKenna, General Counsel
                Samuel Wisch, Professional Staff Member
     Sharon Eshelman, National Security Subcommittee Staff Director
                    Sharon Casey, Deputy Chief Clerk
                 David Rapallo, Minority Staff Director
                                 ------                                

                   Subcommittee on National Security

                    Ron DeSantis, Florida, Chairman
Steve Russell, Oklahoma, Vice Chair  Stephen F. Lynch, Massachusetts, 
John J. Duncan, Jr., Tennessee           Ranking Minority Member
Justin Amash, Michigan               Peter Welch, Vermont
Paul A. Gosar, Arizona               Mark DeSaulnier, California
Virginia Foxx, North Carolina        Jimmy Gomez, California
Jody B. Hice, Georgia                Vacancy
James Comer, Kentucky                Vacancy
                                     Vacancy
                                     
                                     
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on July 11, 2018....................................     1

                               WITNESSES

Hillel Fradkin, Ph.D., Senior Fellow, Hudson Institute
    Oral Statement...............................................     5
    Written Statement............................................     8
Jonathan Schanzer, Ph.D., Senior Vice President, Foundation for 
  Defense of Democracies
    Oral Statement...............................................    16
    Written Statement............................................    18
M. Zuhdi Jasser, M.D., President & Founder, American Islamic 
  Forum for Democracy
    Oral Statement...............................................    40
    Written Statement............................................    43
The Honorable Daniel Benjamin, Norman E. McCulloch Jr. Director, 
  John Sloan Dickey Center for International Understanding, 
  Dartmouth College
    Oral Statement...............................................    66
    Written Statement............................................    69

                                APPENDIX

Statement by Ambassador Ryan Crocker, Diplomat in Residence, 
  Princeton University, submitted by Mr. Lynch...................    88


                 THE MUSLIM BROTHERHOOD'S GLOBAL THREAT

                              ----------                              


                        Wednesday, July 11, 2018

                  House of Representatives,
                 Subcommittee on National Security,
              Committee on Oversight and Government Reform,
                                                   Washington, D.C.
    The subcommittee met, pursuant to call, at 10:06 a.m., in 
Room 2154, Rayburn House Office Building, Hon. Ron DeSantis 
[chairman of the subcommittee] presiding.
    Present: Representatives DeSantis, Duncan, Gosar, Hice, 
Comer, Lynch, and DeSaulnier.
    Also Present: Representative Grothman.
    Mr. DeSantis. The Subcommittee on National Security will 
come to order. Without objection, the chair is authorized to 
declare a recess at any time.
    The Muslim Brotherhood is a militant Islamist organization 
with affiliates in over 70 countries, including groups 
designated as terrorist organizations by the U.S.
    Whether the Muslim Brotherhood writ large should be 
designated as a foreign terrorist organization has been the 
topic of debate here in Congress in recent years and has been 
under consideration by the Trump administration.
    Thankfully, the Trump administration has discarded the 
Obama era policy of treating the Brotherhood as a potential 
ally. Now the questions are focused on how expansive to make 
the terror designation and whether it should be done through 
the State Department or Treasury Department.
    The Muslim Brotherhood has been militant from its very 
beginning. Its founder, Hassan al-Banna, who started the group 
in 1928, said that, quote: ``Jihad is an obligation from Allah 
and every Muslim and cannot be ignored nor evaded.''
    And in a book titled ``The Way of Jihad'' he wrote: ``Jihad 
means the fighting of the unbelievers and involves all possible 
efforts that are necessary to dismantle the power of the 
enemies of Islam, including beating them, plundering their 
wealth, destroying their places of worship, and smashing their 
idols,'' end quote.
    This belief was put into action in the decades that 
followed as the Muslim Brotherhood's members committed numerous 
acts of terrorism, including the assassination of Egypt's Prime 
Minister in 1948.
    This jihadist ideology continues to fuel the Muslim 
Brotherhood today. The Brotherhood mourned the death of Osama 
bin Laden and its leaders developed teachings justifying 
revolutionary violence under sharia law. The Brotherhood has 
preached hatred towards Jews, denied the Holocaust, and called 
for Israel's destruction. The Brotherhood has incited violence 
against Coptic Christians in Egypt amidst a wave of church 
bombings and other attacks by terrorist groups, including ISIS.
    Yusuf al-Qaradawi, perhaps the Brotherhood's preeminent 
cleric, issued a fatwa legitimizing terrorist attacks against 
American troops in Iraq. And he's also deemed the Holocaust to 
be a, quote, ``punishment for Jews,'' and expressed hope that 
another Holocaust would someday be carried out by his fellow 
Islamists.
    The Muslim Brotherhood's Supreme Guide, Mohammed Badie, has 
said that the organization's goal is to establish a new 
Islamist caliphate, including the imposition of sharia law, 
which is the totalitarian Islamic legal code. We saw what 
happens when the Brotherhood takes control of a country in 
Egypt from 2012 to 2013, and the results were chilling, that 
then-President Mohamed Morsi defied the rule of law and granted 
himself near absolute power. As Egyptian leader Mohamed El 
Baradi put it, Morsi usurped all state powers and appointed 
himself Egypt's new pharaoh.
    The Brotherhood's legislators enshrined the principles of 
sharia as the main source of law in Egypt's Constitution, while 
the Morsi government used state institutions to promote Islamic 
radicalism, roll back freedom of the press, and launched a wave 
of blasphemy prosecutions.
    The Morsi Muslim Brotherhood government is no more, but the 
Brotherhood and its affiliates continue to advance their agenda 
across the Middle East and throughout the world.
    There's no question that the Muslim Brotherhood affiliates 
are involved in terrorism. Former FBI Director Robert Mueller 
confirmed as much in testimony before Congress when he said 
that elements of the Brotherhood, both here and overseas, have 
supported terrorism.
    A number of these Brotherhood affiliates have been 
designated as terrorist organizations by the United States 
Government. The Muslim Brotherhood's Palestinian branch Hamas 
has been a designated foreign terrorist organization since 
1997. Hamas has taken control of the Gaza Strip, launched 
thousands of rockets against Israeli civilians, and committed 
suicide bombings and other terrorist attacks that have murdered 
numerous Israeli and American civilians.
    Muslim Brotherhood networks raise money here in the U.S. to 
support Hamas' terrorist activities in the Middle East. 
According to the Department of Justice, in the early 1990s, 
Hamas' parent organization, the Muslim Brotherhood, planned to 
establish a network of organizations in the U.S. to spread a 
militant Islamist message and raise money for Hamas.
    And the Texas-based Holy Land Foundation became the chief 
fundraising arm for the Palestine Committee in the U.S., 
created by the Brotherhood to support Hamas. In 2008, the Holy 
Land Foundation leaders were convicted of crimes, including 
providing material support for Hamas.
    Most recently the State Department designated two offshoots 
of the Egyptian Muslim Brotherhood, HASM and Liwa al-Thawra, as 
terrorist organizations under Executive Order 13224. The State 
Department noted that these groups are responsible for bombings 
and assassinations of senior Egyptian officials.
    This hearing is an opportunity to discuss what the United 
States' next step should be in combating the Muslim 
Brotherhood's threat. Countries including Egypt, Saudi Arabia, 
and the United Arab Emirates have all designated the 
Brotherhood as a terrorist organization.
    I know there's disagreement among experts on how best to 
use terrorist designations to address the threat posed by the 
Brotherhood and its affiliates, and we have different 
perspectives on this issue represented within our panel today, 
and I look forward to hearing the witnesses' recommendations.
    Between the radicalism of it hateful ideology, the danger 
of its theocratic rule, as seen in Egypt, its networks, 
including Hamas and HASM, and its powerful state sponsors, it 
is clear that the Brotherhood constitutes a real threat for the 
national security interests of the United States. We can debate 
the best way to counter this threat, but simply ignoring the 
threat is not an acceptable answer.
    We do have a distinguished panel of witnesses here to 
discuss these issues. I want to thank all of them for taking 
their time to come and provide testimony.
    And it is my pleasure to now recognize the ranking member, 
Mr. Lynch, for 5 minutes.
    Mr. Lynch. Thank you, Mr. Chairman. I'd also like to thank 
you for holding this hearing to examine the multinational, 
religious, political, and social movement known as the Muslim 
Brotherhood. I'd also like to thank our witnesses for their 
willingness to help this subcommittee with its work.
    The Independent Program on Extremism at George Washington 
University describes the Muslim Brotherhood, founded in 1928 in 
Egypt, as, quote, ``the world's oldest and arguably most 
influential contemporary Islamist movement,'' close quote.
    While the Muslim Brotherhood spans the Middle East and 
Africa and has spread into Southeast Asia and the West, it has 
manifested itself globally in very varied forms, ranging from 
nonviolent political actors to groups that have resorted to 
terrorism.
    According to the Program on Extremism, some affiliated 
groups, chapters, and radical offshoots inspired by the 
Brotherhood's Islamic ideology are marked by their adaptability 
to the local politics in a given country, their pursuit of 
individual organizational goals and their complete operational 
independence.
    While at one point the central Brotherhood body in Egypt 
officially renounced terrorism and violence under the Sadat 
regime in the 1970s, there is no doubt that certain affiliated 
organizations and spawn groups continue to espouse and engage 
in violent terrorist activity.
    Chief among them is Hamas, which has been designated as a 
foreign terrorist organization by the United States State 
Department since 1997. The original charter issued to establish 
Hamas in 1988 identified the terrorist group as the Palestinian 
branch of the Muslim Brotherhood.
    Muslim Brotherhood splinter groups such as Liwa al-Thawra 
and HASM also continue to engage in violence in Egypt. These 
organizations have perpetrated assassination attempts against 
Egyptian defense and security officials and bombings against 
government sites, including attacks against the police training 
center in the city of Tanta and the Myanmar Embassy in Cairo in 
2017.
    Meanwhile, democratically elected political parties that 
also fall within the Muslim Brotherhood umbrella represent a 
significant voting bloc in the parliaments and governing 
coalitions of some of our key counterterrorism allies in the 
Middle East and North Africa.
    In Jordan, which has served as the most critical regional 
ally in our coalition efforts to degrade and destroy the 
Islamist State, Brotherhood-affiliated opposition parties, such 
as the Islamic Action Front, hold several seats in the national 
assembly.
    In Morocco, which remains a reliable regional partner in 
U.S. efforts to counter extremism and combat the Islamic State, 
the Islamist Justice and Development Party leads the coalition 
government.
    Ennahda, the main Islamic party in Tunisia, similarly leads 
the coalition government and has overseen the country's 
democratic transition since 2011.
    The State Department lists Tunisia, along with Jordan and 
Morocco, as our committed partners in the coalition to defeat 
the Islamic State.
    In light of the multifaceted composition of the Muslim 
Brotherhood, our national security strategy under Republican 
and Democratic administrations alike has focused on identifying 
the terrorist threats posed by individual affiliates and 
leaders.
    Most recently, the State Department listed the president of 
Hamas' political bureau as a, quote, ``specially designated 
global terrorist,'' close quote, in January of 2018, stemming 
from his ties with Hamas' military wing. The two Brotherhood 
branches involved in the 2017 terrorist attack in Egypt also 
received this designation.
    It's my understanding that some of my colleagues in 
Congress have called for the Trump administration to go further 
and to designate the entire Muslim Brotherhood as a foreign 
terrorist organization, just as Egypt, Saudi Arabia, Syria, 
Russia, and the United Arab Emirates have done.
    The effectiveness of our counterterrorism and force 
protection operations in the Middle East and North Africa 
demand that we approach this issue with caution. A wholesale 
designation would severely complicate our relationship with the 
regional security partners, including Jordan, Tunisia, Morocco, 
Turkey, and Kuwait, where the Muslim Brotherhood functions 
within mainstream government and society.
    Former Secretary of State Tillerson underscored this 
challenge during his congressional testimony last year. His 
statement was, and I quote: ``I think you can appreciate the 
complexities this enters into our relations with governments 
where the Muslim Brotherhood has matriculated to become 
participants, and in those elements they have done so by 
renouncing violence and terrorism,'' close quote.
    It could also further escalate the tension in the Middle 
East, which is already operating in a heightened state of 
conflict, where we still have 2,000 U.S. troops on the ground 
in Syria, an estimated 6,000 troops deployed in Iraq.
    Just last month, Mr. Issa of California and I led a 
bipartisan congressional delegation to the Middle East to 
assess regional security and stability amidst the 8-year civil 
war in Syria and the fourth year of civil war in Yemen. As we 
discussed during bilateral meeting Sing Abdullah of Jordan, 
President el-Sisi of Egypt, Prime Minister Netanyahu of Israel, 
and other allied leaders and military officials, national 
security currently demands that we deconflict the chaos coming 
from these multilayered conflicts.
    The Muslim Brotherhood is experiencing significant decline 
in many countries in the Middle East. It is social conservatism 
that is being rejected by a younger generation that is leading 
to that and accelerating that decline.
    It would be counterintuitive if we lumped political actors, 
nonviolent, nonterrorist, in with the groups that we wish to 
designate for their violent and terrorist activities.
    I would hope that our witnesses would give us direction on 
how best to isolate those who engage in unacceptable terrorist 
activity and not inadvertently give support to those very same 
individuals.
    I yield back.
    Mr. DeSantis. The gentleman yields back.
    I'm pleased to introduce our witnesses. We have
    Dr. Hillel Fradkin, senior fellow at the Hudson Institute; 
Dr. Jonathan Schanzer, senior Vice President for the Foundation 
for Defense of Democracies; Dr. Zuhdi Jasser, president and 
founder of the American Islamic Forum for Democracy; and 
Ambassador Daniel Benjamin, director of the John Sloan Dickey 
Center for International Understanding at Dartmouth College.
    Welcome to you all.
    Pursuant to committee rules, all witnesses will be sworn in 
before they testify. So if you could please stand and raise 
your right hand.
    Do you solemnly swear or affirm the testimony you're about 
to give is the truth, the whole truth, and nothing but the 
truth, so help you God?
    Please be seated.
    All witnesses answered in the affirmative.
    In order to allow time for discussion, please limit your 
testimony to 5 minutes. Your entire written statement will be 
made part of the record.
    As a reminder, the clock in front of you shows the 
remaining time during your opening statement. The light will 
turn yellow when you have 30 seconds left and red when your 
time is up. Please also remember to press the button to turn on 
your microphone before speaking.
    And with that, Dr. Fradkin, you're up for 5 minutes.

                       WITNESS STATEMENTS

                  STATEMENT OF HILLEL FRADKIN

    Mr. Fradkin. First, I'd like to begin by thanking Chairman 
DeSantis and Ranking Member Lynch and their colleagues for the 
invitation to address this hearing. It's a privilege to 
participate in this hearing and its discussion of a most 
important subject, the Muslim Brotherhood's global threat.
    After listening to the opening statements, it's a 
particular privilege because I can see from the statements that 
both the chairman and the ranking member are extremely well 
informed about the subject. But that leads to a problem: I'm 
not sure what I may reasonably add to what has already been 
said. I will give it a go and probably go over some of the same 
points that you enunciated and maybe flesh out a few things 
along the way.
    Generally speaking, this subject entails three general 
questions. First, is the Muslim Brotherhood a global threat? 
Second, if it is a global threat, how successful has it been or 
might be? Third, what can be do address this threat? And I do 
understand that's one of the principal objectives here.
    I'm going to principally address the first two questions in 
the prepared remarks and then I expect we'll discuss the third 
question more generally during the discussion period.
    Is the Muslim Brotherhood a global threat? Part of the 
answer is clear. The Brotherhood certainly means to be global 
and it means to be a threat.
    More specifically, the Muslim Brotherhood is devoted to a 
political and religious project that in principle, in its 
essential character and goals, is hostile to other forms of 
politics, including our own. And it means for this project to 
be global in extent. And both of these things have been true 
for a long time, since the founding of the Brotherhood some 90 
years ago by Hassan al-Banna.
    This had to do with the nature of the project itself. What 
was that project? In response to this question, Banna offered a 
simple fivefold formulation that has remained the model slogan 
of the Brotherhood ever since. Quote: ``Allah is our objective, 
the Prophet is our leader, the Koran is our constitution, jihad 
is our way, dying in the way of Allah is our highest hope.''
    Banna proposed this political-religious goal as the 
alternative to the new nation-state politics of his native 
Egypt. More emphatically, he proposed this as the only 
legitimate form of Muslim politics. Simply, its virtue was to 
renew and embody the authentic Muslim way of life, the way of 
life constituted, as he put it, by the Koran and the example 
the Prophet.
    As such, it applies to all Muslims everywhere. Hence, his 
project was necessarily global in principle. To use a term that 
has recently become familiar, it was to be--wind up 
establishing the Islamic State.
    In accord with this, Banna sought to establish branches of 
the Brotherhood in other countries and over time partially 
succeeded. Banna was murdered in 1948, but the essential tenets 
he prescribed for the Brotherhood have never been repudiated. 
And this, I believe, is not controversial nor should it be, 
that there has been no real change in the essential principles.
    And this, I may add, this was enunciated very, very clearly 
by a man named Khairat al Shater, who was the deputy guide of 
the Egyptian Brotherhood, in the spring of 2011 after the 
revolt had started, in a very, very interesting speech, which I 
might reference again later, in which he insisted that nothing 
that they were doing was inconsistent with or in violation of 
what the original vision was.
    What has been controversial is what the Brotherhood project 
practically means and where it falls within the universe of 
other radical Islamic organizations. The controversy is--put it 
this way--there was the suggestion, especially beginning after 
9/11, that by comparison with al-Qaida and other similar 
organizations the Brotherhood was moderate and could be a force 
for moderation. It was argued that it no longer seriously 
embraced the radical vision Banna had enunciated. Rather it was 
ready to participate in ordinary politics and through that 
participation would further moderate.
    As Chairman DeSantis mentioned, we have now had one 
important test of those hopes and they have proven to be false. 
The form of this test was the Brotherhood's sudden if brief 
rise to power in Egypt after the revolt of 2011. While in power 
it attempted to establish a new regime in Egypt that would more 
or less conform to its founding radical vision. And I want to 
stress that this was by intention. Well, Shater thought that 
the time of the final stage of the Muslim Brotherhood project 
had arrived. He was wrong and the project failed.
    Where does that leave the Brotherhood today? I know my time 
is up, but I will conclude with a couple of sentences.
    Mr. DeSantis. Just wrap it up if you can.
    Mr. Fradkin. Certainly within Egypt the Brotherhood is for 
the present a broken organization. But it has sustained defeats 
before, partially by finding bases elsewhere. In the 1960s this 
meant Saudi Arabia; today it means Turkey and Qatar. What it 
will attempt to do from these bases remains to be seen.
    I also want to add one final thing. It is often thought 
that al-Qaida is hostile to the Brotherhood and that's been 
certainly true. Very recently, I think within the last month or 
so, the present head of al-Qaida, Ayman al-Zawahiri, made a 
speech in which he referenced the old ties, the old roots 
between the Brotherhood and al-Qaida with great nostalgia and 
welcomed the Brotherhood members to his own project or to a 
reconciliation of sorts.
    Thank you for your attention, and thank you for your 
permission to go over.
    [Prepared statement of Mr. Fradkin follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
       
    Mr. DeSantis. Appreciate it.
    Dr. Schanzer, 5 minutes.

                 STATEMENT OF JONATHAN SCHANZER

    Mr. Schanzer. Chairman DeSantis, Ranking Member Lynch, and 
members of the subcommittee, on behalf of FDD, thank you for 
the opportunity testify this morning.
    In 2011, President Barack Obama's Director of National 
Intelligence, James Clapper, famously sparked an outcry when he 
said that the Muslim Brotherhood was a, quote, ``heterogeneous 
group, largely secular, which has eschewed violence and has 
decried al-Qaida as a perversion of Islam,'' end quote.
    Clapper was way off the mark. For one, the Muslim 
Brotherhood is a gateway to jihadism, as we have already noted 
this morning. It's also a hate group. Its ideology is 
xenophobic, bigoted, and totalitarian.
    And the Brotherhood is not exactly heterogeneous either. 
Many branches subject their members to rigid indoctrination and 
demand unwaivering commitment to the Brothers' deeply 
intolerant interpretation of Islam.
    Still, the Brotherhood's branches do differ tactically. In 
Tunisia and Morocco it is part of the ruling elite. In Jordan 
and Malaysia it's the loyal opposition. In Egypt, Saudi Arabia 
and UAE it is banned outright, forcing the group to work 
underground. And the fact that the various factions do not all 
engage in violence makes it difficult to designate the movement 
in its entirety.
    But that does not mean that Washington is without recourse. 
The Treasury and State Department designated two suspected 
Egyptian Brotherhood offshoots, HASM and Liwa al-Thawra, 
earlier this year. Both groups carried out deadly attacks 
against the army, the judiciary, and the police since 2016.
    In making the case for the designations, the Brotherhood 
links to these groups were actually inconsequential. What 
mattered was the legal criteria, their track records of 
violence and support for terrorism.
    The goal now is to find others that meet this criteria, and 
to that end I have two suggestions. One is the Libyan Hizb al-
Watan, led by Abdelhakim Belhaj, who previously led the Libyan 
Islamic Fighting Group, a designated terrorist group here in 
the U.S. Belhaj was also believed to be training members of 
Ansar al-Sharia in Tunisia, another U.S.-designated terrorist 
group.
    Another is al-Islah, which is Yemen's affiliate. One 
cofounder of Islah is Abdul Majid al-Zindani, who allegedly 
helped to coordinate the 2000 attack on the USS Cole. In 2013 
the Treasury noted that Zindani issued religious guidance in 
support of Al-Qaeda in the Arabian Peninsula. Islah figures 
also reportedly harbored archterrorist Anwar al-Awlaki prior to 
2011 death by a U.S. drone strike.
    Do these groups meet criteria? I don't know. Ask the 
intelligence community.
    In the meantime, we must also look at the Brotherhood's 
state sponsors, namely Turkey and Qatar. Turkey's ruling AKP 
party is effectively the Turkish arm of the Muslim Brotherhood. 
Turkish president Recep Tayyip Erdogan famously dispatched a 
Turkish campaign strategist to Egypt to help Mohamed Morsi win 
the election, then sent billions of dollars to keep his regime 
afloat.
    After Morsi's ouster in July 2013, Turkey became a home for 
exiled Brotherhood. Hamas operatives have also made their home 
there, including Saleh Arouri, the head of the West Bank 
military wing, who ordered a triple murder in 2014 that sparked 
a massive rocket war with Israel.
    Turkish support for the Brotherhood-linked military 
activity also appears to extend to Libya. Press reports suggest 
that Turkey has been shipping arms to Libyan Brotherhood 
factions. And Turkey now hosts several Brotherhood affiliate TV 
channels as well.
    And speaking of TV channels, we can't forget Qatar. Qatar 
is owner of the pro-Brotherhood TV channel Al Jazeera, but its 
support extends far beyond that.
    After Morsi was elected, Doha gave the Egyptian regime 
billions in aid. Qatar today provides safe haven for many 
exiled Brotherhood figures. Other factions that enjoy Qatari 
support include Tunisia's Ennahda movement, Yemen's Islah, 
Libya's Hizb al-Watan, and of course Hamas.
    Chairman DeSantis, Ranking Member Lynch, I offer four 
recommendations today:
    One, do not waste valuable Federal resources trying to 
designate the entire Brotherhood. Focus on the factions that 
have a record of violence and terrorism finance.
    Number two, use Treasury's tools to reinforce existing 
designations. For example, Hamas, HASM, Liwa al-Thawra are 
already designated. Treasury should sanction the support 
networks. These derivative designations are bureaucratically 
easier to achieve, while designations of new entities can often 
get caught up in the red tape of the interagency process.
    Number three, confront Turkey and Qatar. Their support to 
the Brotherhood is undermining our efforts in that crucial 
battle of ideas.
    And four, support the House NDAA provision calling for a 
report on the Muslim Brotherhood. It is important that we here 
in the U.S. conduct our own assessment of this organization and 
formulate a strategy to address this important challenge.
    On behalf of FDD, thank you again for the opportunity to 
testify, and I look forward to your questions.
    [Prepared statement of Mr. Schanzer follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
   
    
    Mr. DeSantis. Thank you.
    Dr. Jasser, you're up for 5 minutes.

                  STATEMENT OF M. ZUHDI JASSER

    Dr. Jasser. Thank you, Chairman DeSantis and Ranking Member 
Lynch and other members of the House Subcommittee on National 
Security, for holding a very important hearing on the Muslim 
Brotherhood's global threat.
    Our American Islamic Forum for Democracy is a counter-
Islamist American Muslim think tank and activist based in 
Phoenix, Arizona.
    I ask that my full written testimony be placed into the 
record.
    Mr. DeSantis. Without objection.
    Dr. Jasser. I am here today because as an American Muslim I 
have dedicated my life to American security and freedom, not 
only with 11 years in the U.S. Navy, but since 9/11 formally 
countering the oppressive and radicalizing influence of 
Islamist groups in the West upon our communities.
    No group embodies the threat of the radical Islamists more 
than Muslim Brotherhood, or in Arabic, Ikhwan al-Muslimin. The 
Muslim Brotherhood is a terrorist organization. Help us modern-
minded, secular, liberal Muslims marginalize their influence by 
declaring what they are: a terrorist organization. 
Unfortunately, much of the conversation about the Brotherhood 
has been obstructed, muted, marginalized, deferred, minimized 
by the Muslim Brotherhood sympathizers or their allies here in 
the West.
    I have to tell you, in my heart of hearts, I think those 
who give the Ikhwan excuses--either say they are not 
monolithic, they are democratic, they are nonviolent, they have 
branches--must really believe that our entire faith of Islam, 
my faith, is just shades of oppressiveness of theocracy, so we 
have to tolerate the nonviolent theocrats.
    Somehow, we Muslims are since terminally having to accept 
the leadership and control of the global network of the 
terrorists of the Muslim Brotherhood.
    In point of fact, nothing would be more pro-Muslim than the 
marginalization of the Muslim Brotherhood and its direct 
affiliates. Making the Muslim Brotherhood radioactive would 
allow the light to shine upon the most potent antagonists in 
Muslim communities: those who reject political Islamist groups 
and believe in liberty and the separation of mosque and state.
    In my short time I wanted to quick paint two pictures for 
you. First, this diagram. It may be hard to read. But bottom 
line, just so we understand what we are talking about, the 
Muslim Brotherhood, if you look at the top there, 1.6 billion 
Muslims, I think you can divide them politically into 
Islamists, who believe in Islamic states, and secularists.
    Under the Islamists, you've got Sunni and Shia strains. All 
Muslims have two major sects, if not more. There are other 
heterogeneous sects. But 90 percent are Sunni, 10 percent are 
Shia. Within the Sunni stream of Islam are political Islamist 
groups, like the Muslim Brotherhood, the Salafis, and Jamaat e-
Islami in Pakistan.
    The Brotherhood has offshoots of terror groups, and the 
nonviolent group, I believe, gives cover to the Muslim 
Brotherhood terror groups, if you will.
    So that just sort of lays it out as being a strain of Sunni 
Islam. I think that's important because if we start this 
project by labeling the Muslim Brotherhood factions in various 
countries terror groups, I think it also then should not give a 
pass to the Khomeinists in Iran, to other strains, the Salafi 
jihadis, ISIS, et cetera. So just so you understand where they 
fit.
    The next slide looks at the logo. And I think it's 
important to understand what they are. They have not changed 
their logo. And at the bottom, under those swords, which are 
not peaceful, that are not violent symbol, it says wei du(ph).
    And wei du (ph) is from chapter 8, verse 16 of the Koran, 
and it says ``make ready.'' And it's not the Boy Scouts' ``be 
prepared, make ready.'' This is a passage in the Koran that 
refers specifically to battle and preparing for militancy. 
This, despite them coming to power in Tunisia and Egypt and 
elsewhere, they never change the symbol and what they are.
    Thank you for those slides.
    al-Banna and Qutb, as you've heard before me, put forth the 
notion that Islam is all-encompassing for society. And if you 
look at the motto it says, as has been pointed out, that death 
for the sake of God is their highest aspiration.
    So let's define a terror group. Terror group means that the 
actors use any possible targeting of noncombatants or even 
combatants outside the rules of war in order to advance their 
supremacist hegemonic aspirations.
    The Muslim Brotherhood has never condemned theologically or 
ideologically the use of terrorism. And if they have it's been 
a cover, since they've reverted to that repeatedly.
    Now, Muslims are not monolithic. But the Brotherhood, 
whether it's 1.0 or 9.0, in the last 90 years is monolithic, 
and trying to say it's not monolithic is dancing on the head of 
an pin.
    Like the Cold War, communism was a cancer, but the war was 
against Soviet communism. Here, Islamism is the cancer within 
our faith communities, but the war is against the Ikhwan.
    We need to be on the offense, and for too long we've been 
on the defense worried about what the reactions will be. And 
ultimately I see that concern, that defensiveness on the 
American posture about naming the Brotherhood a terrorist 
organization, as at best a form of bigotry of low expectations 
when it comes to Muslims.
    The common enemy theory, saying that, well, the Brotherhood 
has a common enemy with us against ISIS and al-Qaida, is 
offensive to me, not only as an American, but as a Muslim. I 
hear the same thing in saying that we should support genocidal 
tyrants like Assad because they have common enemies with us 
against ISIS.
    Many people try to separate the central elements of these 
parties from the militant terrorist progeny. Recep Erdogan, the 
head of the Muslim Brotherhood group in Turkey, also known as 
the AKP, said: Democracy is like a train; we ride it until we 
get where we want to go and then we get off.
    It is time that we made them radioactive. And I detail in 
my testimony all of the connections, the revolving door between 
various al-Qaida groups, humanitarian organizations in the West 
and in the Middle East.
    The Supreme Guide of the Muslim Brotherhood said just in 
2010, long after the 1970s in which they supposedly condemned 
violence, he said: Resistance is the solution against Zio-
American arrogance and tyranny. The resistance can come from 
fighting and understanding--this is from Mohammed Badie, the 
head of the Brotherhood in Egypt, this is 2010, basically 
reiterating the declaration of war that Osama bin Laden said in 
the 1990s. There is no coincidence that there is a revolving 
door between leaders of al-Qaida and the Muslim Brotherhood.
    I think, as has been said before, we begin pegging off 
various groups, terrorist groups from Syria, to Libya, to 
Yemen, to Kuwait, and on, and then ultimately that will begin 
to cut the funneling of money, funneling of ideas into other 
Muslim Brotherhood groups in the West.
    So my final recommendations, Chairman, is to, one, 
designate the MB a foreign terrorist organizations beginning in 
Egypt, and then on a country-country basis in Libya, Syria, 
Kuwait, Jordan, and Yemen.
    Call on American Muslim leaders to take a position on the 
Muslim Brotherhood and its overarching theo-political ideology. 
I ask my fellow Muslims: Will they be the side of freedom, 
liberty, and modernity, or will they be on the side of tyranny 
of the Muslim Brotherhood, Turkey's AKP, the Iranian 
Khomeinists, or Pakistan's Jamaat e-Islami?
    Develop foreign policy mechanisms to disincentivize Qatari 
and Turkish Government facilitation of the Brotherhood and 
ultimately think about suspending Turkey from NATO.
    Use the MB designation as a template to transition 
immediately from the currently useless ideological center of 
CVE, countering violent extremism, to the more practical one of 
countering Islamism.
    And please stop engaging Muslim Brotherhood legacy groups 
in government, media, and NGOs, and recognize their Islamist 
terrorist sympathies.
    Thank you.
    [Prepared statement of Dr. Jasser follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    Mr. DeSantis. Thank you.
    Ambassador Benjamin, you're up for 5 minutes.

                  STATEMENT OF DANIEL BENJAMIN

    Mr. Benjamin. Chairman DeSantis, Ranking Member Lynch, 
distinguished members of the subcommittee, thank you for 
inviting me here today to discuss this important subject.
    The title of this hearing, ``The Muslim Brotherhood's 
Global Threat,'' invites comment on two questions. The first is 
whether there is a singular entity entitled the Muslim 
Brotherhood. The second is whether that entity or some group of 
Muslim Brotherhood branches or affiliates represent a genuine 
global threat.
    On the first question the answer is straightforward. As 
scholars, intelligence analysts, and policymakers over many 
years have come to agree, there is today no singular monolithic 
Muslim Brotherhood. Decades after the genesis of the Egyptian 
Ikhwan, there is no central administration linking these many 
different groups which are often said to have Brotherhood 
links, or of ideology or origins. In character and matters of 
doctrine they vary greatly.
    The Muslim Brotherhood in Egypt is an outlawed 
organization, many of whose members are incarcerated. In 
Jordan, the Brotherhood plays a legitimate political role in 
the form of the Islamic Front, which has played an important 
role in Jordan's Parliament. The Kuwaiti Brotherhood's party is 
a legitimate member of that country's parliament. In Morocco, 
the Justice and Development Party has held the prime minister's 
position and is also said to be linked to the Muslim 
Brotherhood.
    Tunisia's Ennahda is frequently characterized as having 
ties to the Brotherhood, though the party has probably 
confounded the expectation of Brotherhood members elsewhere by 
saying that it is separating politics from religion. It's 
notable that just a week ago an Ennahda member, a woman, was 
elected mayor of Tunis and that she does not wear a veil.
    Again, no serious researcher has demonstrated durable links 
between these groups that could be described as ones of command 
and control.
    Does the Muslim Brotherhood constitute a global threat? 
Hereto I would answer that it does not. Most of the groups that 
are said to be Brotherhood affiliates or franchises support the 
democratic process and have abjured violence, if they ever 
embraced it.
    The Egyptian Brotherhood forswore violence in the 1970s. 
There is no compelling evidence that it has reversed course.
    It is noteworthy that two Egyptian Brotherhood splinter 
groups, Liwa al-Thawra and HASM, were designated earlier this 
year under Executive Order 13224 as terrorist organizations and 
both do indeed have a record of violence. It is, however, 
fallacious to suggest that this is a sign of the Brotherhood's 
return to violence. These groups appear to have split off 
because their members wanted to commit violence while the 
Brotherhood as a whole did not.
    I want to be clear, I have no sympathy for the Muslim 
Brotherhood. The Egyptian group, for example, often delivers 
hate-filled anti-American and anti-Western pronouncements that 
are truly repellant. But if there's a threat emanating from the 
various organizations that can be grouped as part of the 
Brotherhood family, it is that repression against them may 
cause them to decide that violence is their only option.
    Anyone looking for the place where the next great jihadist 
wave will break would have to consider Egypt a strong 
possibility. The Egyptian Muslim Brotherhood has hundreds of 
thousands of members and, despite the poor governance of 
Mohamed Morsi, millions of sympathizers.
    The widespread use of extrajudicial killing, indiscriminate 
incarceration, and torture has created a situation in which 
modern Islamists, people who want their society to be more 
Islamic but do not support violence, have no good options. They 
may come to see themselves as cornered and having no 
alternative but to take up arms.
    And it is important to remember that jihadism emerged in 
Egypt, and specifically from the notorious Tora Prison, amid 
the persecutions of the Nasser period. It will be a tragedy and 
indeed a strategic blunder if that lesson has been forgotten.
    A few other quick observations.
    First, the Trump administration evaluated the Brotherhood 
immediately after coming into office and determined that there 
was no legal basis to designate the group.
    Although there has been much speculative writing in the 
press about the orientation of the Brotherhood, the State 
Department's decision not to designate is telling. Department 
decisions are not based on open-source information of uncertain 
quality. Instead, designation decisions are based on all-source 
information, including classified intelligence.
    The fact that such a review took place and that the wishes 
of senior policymakers to designate the group were well-known 
tells a clear story. No basis was found for designating at the 
time. I am unaware of any indication that there is more of a 
basis now. I'm also unaware that this issue is being reviewed 
again within the government.
    A final point. Policymakers and legislators, like 
physicians, must keep in mind the injunction to do no harm. A 
hardline approach to the Muslim Brotherhood groups and their 
members could do significant harm.
    The United States may be enjoying improved relations with 
some Arab countries, such as Saudi Arabia and the UAE, 
countries, it should be noted, whose opposition to the Muslim 
Brotherhood is at least in part rooted in their opposition to 
democracy.
    But its reputation globally among Muslims--that is the 
United States' reputation--is at a low point due to President 
Trump's travel ban, his talked about a national registry of 
Muslims, and other negative comments about Muslims.
    The U.S. faces a real and continuing threat from jihadist 
terrorist violence. Unwise actions to target the Muslim 
Brotherhood groups will only deepen the animus against America, 
and we should not do anything that helps our enemies attract 
more recruits. That, too, would be a blunder.
    It would also be a blunder to further alienate already 
discomforted members of the domestic American Muslim community. 
The last thing the U.S. needs to do is to encourage 
radicalization at home.
    I want to thank you for your time, and I look forward to 
your questions.
    [Prepared statement of Mr. Benjamin follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
   
    
    Mr. DeSantis. I thank the gentlemen.
    The gentleman notices the presence of the gentleman from 
Wisconsin, Mr. Grothman, a member of the full committee.
    We thank you for your interest in this topic.
    Without objection, I'd like to welcome Mr. Grothman to 
participate fully in today's hearing. And without objection, so 
ordered.
    The chair now recognizes himself for 5 minutes.
    Dr. Jasser, the argument I think somewhat sketched out by 
Ambassador Benjamin is that if you take a strong stand against 
the Brotherhood like you articulated, that you're alienating 
so-called moderate Islamists and that that ends up leading to 
more terrorism. So how do you respond to that?
    Dr. Jasser. Well, again, I'd use the Cold War analogy. Were 
we worried when we took on the militant Soviets that we would 
alienate the moderate non-Soviet communists.
    It is beyond bigoted to say that the Muslim community is 
represented only by our establishment Islamists who dominate 
oppressively our community.
    So what better way than the country founded on defeating 
theocracy, the United States, to take a position against the 
militant arm of the theocratic branches of the Islamic faith? 
And I think that it would send a message around the world that 
we recognize that the Brotherhood is a militant organization 
and we that way build a platform for what I believe is a 
majority of the non-Islamist voices.
    There were 10 million people that went to the streets in 
Egypt to protest in Revolution 2.0 against the Brotherhood; 90 
percent of those folks were Muslims. And yet, it seems that 
from the arguments of the ambassador and others that the only 
people that we care about are the wings of this oppressive 
party that are nonviolent and somehow want to use democracy as 
a tool to get the power and then oppress the rest of the folks.
    If you look--I was on the U.S. Commission on Religious 
Freedom, met with the Brotherhood in 2013 in Cairo. And I can 
tell you that in speaking to them they have no interest in 
changing their mission, what they are, what their goal is. They 
see the world through the lens of theocracy, not through 
egalitarian rights.
    To say you can moderate the Brotherhood is like saying you 
can moderate the Communist Party into capitalists. It's 
impossible.
    Mr. DeSantis. So, I mean, just to sketch out the ideology, 
I mean, what does that mean for Christians and Jews or other 
religions?
    Dr. Jasser. Well, there's barely any, if any, Jews left in 
Egypt because of the Islamists and what they've done in that 
country and also dictatorship. The Islamists, when they get 
into power, are not only anti-Semitic, listen to their imams 
and clerics and what they preach out of Al Jazeera, from 
Qaradawi on down.
    Women's rights, the ambassador may have cited that they had 
one not hijabed woman, but the bottom line, that's window 
dressing for a central authority that is misogynistic and 
interprets the Koran and other sharia interpretations that say 
that women get a half a vote of a man, a quarter of the 
inheritance, et cetera.
    So they, as you saw in the way they put forth the 
constitution in Egypt, have no interest in an egalitarian, 
liberal, secular constitution. Their interest is the Islamic 
state and giving people rights not under God, but under Islam 
and their interpretation of Islam, where minorities, Coptic 
Christians, apostates--they call moderate Muslims who are anti-
Islamist apostates. They put people in jail, as Morsi did 
hundreds and thousands, for criticizing him as criticizing 
Islam. That's theocracy.
    Mr. DeSantis. This notion of a moderate Islamist, I mean, 
Islamism is inherently not moderate, because, I mean, if you 
want Islamism to be the governing faith, that is a totalitarian 
system, not democratic. And so to say that that's moderate, I 
mean, maybe it means you're not launching terrorist attacks, 
but you still want an end that is very illiberal, I think.
    The chart you put up, and I want to see if you had--you had 
the Islamist wing, then you had the Brotherhood, and then kind 
of the terrorism growing out of that. And people say, well, the 
Brotherhood, they are not necessarily directing every terrorist 
attack, and I think that's true, but is it safe to say that the 
Brotherhood's ideology has served as kind of the intellectual 
foundation that has sprung a lot of the terrorist groups that 
we've seen, from al-Qaida to ISIS to everything in between?
    Dr. Jasser. Absolutely. I'm a doctor. In the daytime I 
treat patients and disease. We don't treat symptoms. One of the 
primary global cancer cells for the development of al-Qaida, 
Islamic Jihad, all of these offshoots, the primary source of 
training ground is Muslim Brotherhood. Some of them train to be 
part of the secret committee to ultimately be violent, and some 
of them come to the West to make sure our policy remains 
defensive and not offensive.
    So ultimately the goals of their ideology is to create 
Islamic states and a caliphate, and that has never changed.
    Mr. Benjamin. Mr. DeSantis?
    Mr. DeSantis. Dr. Fradkin, Sisi gave a speech probably a 
couple of years ago now where he challenged a lot of the 
Islamist clerics and said: Look, we cannot--and he's a devote 
Muslim, but he was making the point that you can't have a faith 
that is at war with everybody who disagrees, that's billions of 
people. And I think he has made the decision that you really 
have to marginalize the Brotherhood.
    What do you think? Is Dr. Jasser right or is a more 
targeted approach as enunciated by Dr. Schanzer? What are your 
views? How would you comment on those?
    Mr. Fradkin. Thank you very much for the question. It's an 
excellent one.
    I'm not myself clear yet about just how one goes about 
tackling the Brotherhood in terms of the designation as a 
terrorist group. What I am clear about is that it does--it 
creates the conditions for terrorist groups, the way in which 
Dr. Jasser said, in the sense that it is the original version 
of the ideology which underlies the undertaking.
    Another thing I think should be observed is this: We have 
tried to engage with the Brotherhood. And let's put it this 
way: Egypt has been an experiment in several ways.
    First, we had an experiment of how the Brotherhood would 
behave in power. And it had been proposed before that that when 
they come to power they would be, through the exercise of 
power, they would learn to be moderate.
    That we saw was false, and there are reasons why it was 
false, because when they saw the opportunity to exercise total 
power they were keen to.
    We also had an experiment of trying to understand them as a 
vehicle for moderate politics, of engaging with them in that 
direction. That experiment began--well, it began actually in 
the Bush administration, in a variety of ways, but its most 
visible expression was President Obama's speech in Cairo, 
which, among other things, went out of its way to welcome the 
Brotherhood. They were welcomed to the speech itself, somewhat 
against the wishes of Mubarak.
    Mr. DeSantis. My time's up, so you all will have a chance. 
But I want to give Mr. Lynch, get him in here. So I will 
recognize Mr. Lynch.
    Mr. Lynch. Thank you, Mr. Chairman. I would ask unanimous 
consent, I have a letter here, a statement by Ryan Crocker, an 
eminent diplomat in the service of our country. And I'd ask 
that it be entered into the record.
    Mr. DeSantis. Without objection.
    Mr. Lynch. Thank you, sir.
    I do want to make a distinction here about what the 
designation of the Muslim Brotherhood as a terrorist 
organization.
    So there are a lot of conservative, we would even say 
repressive regimes around the world. There are many militant or 
extremist groups around. But the terrorist, terrorist 
designation is targeted toward activity, conduct, war on the 
civilian population.
    And so that's a different terminology and a different 
meaning than simply targeting regimes or organizations because 
they are conservative in their ideology. So it's an important 
distinction to make.
    The other challenge we have here, and I heard it from each 
of you, is our ability to target specific organizations for 
that unacceptable behavior, that waging of war on the civilian 
population and terrorist activity.
    So, Mr. Fradkin, you've said as much.
    Dr. Schanzer, you were saying in your testimony, which was 
very helpful, I think, and thoughtful, that rather than do this 
blanket label of terrorism on the whole Muslim Brotherhood, 
then go after the individual groups that are actually 
undertaking this unacceptable activity, and I completely agree.
    Dr. Jasser, you as well, country by country, let's target 
these people and call them out, call them out and isolate them 
in a way that doesn't make them stronger, but isolates them and 
weakens them.
    Ambassador Benjamin, I know you didn't speak directly to 
this issue, but in the past our success in isolating some of 
these groups has been our ability to differentiate the bad 
actors from the surrounding population and severing their local 
support.
    That seems to be what's happening in many cases in the 
Middle East where the younger population, as I mentioned in my 
opening remarks, the younger population is rejecting some of 
the more extreme edicts of the Muslim Brotherhood.
    Is that something, is that an approach that you think would 
be successful given your experience on the ground as an 
ambassador?
    Mr. Benjamin. Mr. Lynch, the United States has had great 
success in isolating terrorist groups and cutting off their 
wellsprings of support, if you will, and diminishing their 
appeal to the broader population.
    The United States has a much more mixed record when it 
comes to intervening in the politics of other countries and 
telling foreign populations who we approve of and who we don't.
    And our ambassadors, our envoys should by all means speak 
out against hatred, speak out against anything that promotes 
division and promotes antipathy towards the West, but our 
ability to take on the Muslim Brotherhood in the various 
countries when it is not a group engaged in terrorist 
activities is going to be challenging.
    If anything, given the fact that most of these countries 
the Muslim Brotherhood now has a political party, it's in the 
parliament, requires I think that we engage with them more and 
suggests that the benefits of moderation are available to all 
of those who pursue truly democratic policies and the 
pluralistic vision that the United States has stood for.
    Mr. Lynch. Thank you.
    I do want to take a minute here. I thought the statement by 
Ryan Crocker was instructive and important.
    He says here--and obviously Ryan Crocker served in Beirut 
during the bombings of the Marine barracks there, served for 
many years in Iraq. I've had many, many dealings with him. I 
think I've got over 20 trips to Iraq while he was our 
ambassador there.
    But he writes that, after 38 years of his service as a 
Foreign Service officer, the Muslim Brotherhood is not a 
monolithic organization.
    He adds that it's not an organization at all in the 
conventional sense of the term. It has no international 
headquarters, nor an identifiable global leadership. Individual 
country franchises vary dramatically in their ideology and 
politics, and especially in their attitudes towards political 
violence.
    At one extreme, he acknowledges, would be the Syrian Muslim 
Brothers who carried out a number of lethal bombings throughout 
the country in the 1970s. The other would be the Muslim 
Brothers in Egypt, Jordan, and North Africa.
    In Iraq post-2003 the only organized Sunni political party 
was the Muslim Brotherhood-affiliated Islamic Party in Iraq. 
And during his time in Iraq, 2007 to 2009, he worked closely 
with the Islamic Party and its leader, Iraqi Vice President 
Tariq al-Hashimi.
    So I think what he's pointing to is the wisdom of 
discerning which of these affiliates and groups is engaging in 
terrorism and which are engaging in political activity, the 
distinction I made before about whether someone is labeled a 
radical or an extremist and one who is labeled as a terrorist. 
And so I hope we are precise in our language here and precise 
in our goal.
    The other challenge with terrorism is their ability to 
adapt. And I think that just putting out a blanket designation 
on the Muslim Brotherhood, they will sidestep that in a 
heartbeat, and those organizations will reconfigure and 
reassemble in a way that will do nothing to reduce their 
lethality.
    Thank you, Mr. Chairman. I yield back.
    Mr. DeSantis. The gentleman yields back.
    The chair now recognizes the gentleman from Arizona for 5 
minutes.
    Mr. Gosar. Dr. Jasser, good seeing you again.
    This conversation is headed just in the right direction 
here. So one of the biggest problems in making policy decisions 
with regard to the Muslim Brotherhood is the fact that the 
Muslim Brotherhood frequently creates front groups that while 
ostensibly are separate, but in reality have close ties to the 
mother ship in Egypt.
    This can include respectable institutions such as civil 
rights organizations, community groups, and charities. A recent 
report by the Middle East Forum concerning Islamic Relief, an 
international aid charity, documented extensive ties between 
Islamic Relief and the Egyptian Muslim Brotherhood.
    One of the numerous examples given was the fact that Essam 
El-Haddad, cofounder of Islamic Relief Worldwide, became a 
foreign policy adviser to Mohamed Morsi, and according to 
Egyptian prosecutors used Islamic Relief moneys to fund Muslim 
Brotherhood terrorism in Egypt.
    Question: Does this tendency of the Muslim Brotherhood to 
form ostensibly separate spinoff groups under more respectable 
sources concern you? And secondly, what should our policy 
towards those organizations be?
    Dr. Jasser. Thank you, Congressman Gosar. And it is good to 
be here. Thank you.
    I can't tell you enough how important this issue is. And 
while I believe that the--the first thing I'd respond is tell 
you that the best way to marginalize groups that are front 
groups in the West--so I call them Muslim Brotherhood legacy 
groups, because they don't go by the name Muslim Brotherhood.
    In the United States we've not had religious parties, so 
they've not operated openly. In London they operate openly. The 
Muslim Brotherhood has an office. The Ikhwan website is 
operated out of London.
    But if you want to decrease their influence, the to and fro 
passage of money, Islamic Relief, for example, it's a great 
example. They have donated to Islamic Relief Worldwide.
    The Middle East Forum has an excellent report that was put 
out a week or 2 ago that looks at all of the revolving doors 
between radical Islamist terror groups around the world and 
Islamic Relief. I mean, Bangladesh, a Muslim country, does not 
allow Islamic Relief to do humanitarian work with Rohingya 
refugees because they're worried about radicalization.
    So the problem with front groups in the West, I think, will 
be diminished not by designating group that operate in the West 
here under other names. I think it's too hard to do that. But 
once you designate the mother ship in Egypt, the Brotherhood, a 
terrorist organization, you designate the Yemeni, the Kuwaiti 
Brotherhood as terror organizations, it is going to be much 
more radioactive, their platform of dominating our community.
    And this is why, if you look at the Muslim Sunni 
Association, I'd ask you all to look at the explanatory 
memorandum. The FBI put it into the documentation of the Holy 
Land Foundation trial that laid out the network of Muslim 
Brotherhood organizations and what their plan is in the West. 
That's stood the test of time in the court system and has not 
been refuted effectively because it is the truth, that that was 
their operation.
    So they are a threat. I think they oppress our own 
community here through their money, through their work with 
Qatar and other; Turkey. I mean, in Turkey just 2 weeks ago an 
organization called USCM, or the U.S. Consortium of Muslim 
Organizations, which is basically the Muslim Brotherhood 
leadership in America, went to congratulate Erdogan on his win 
in Turkey, supposedly as a democratic win. Forget the fact that 
he imprisons journalists, tortures professors, all these things 
it didn't matter to them because he's one of Brothers.
    So if I'm going to have a voice and our Muslim reform 
movement is going to have a voice in the United States, the 
best way to weaken our main antagonists, which are the 
Islamists, is to begin to diagnose their foreign terror 
organizations that they sympathize with as terrorist 
organizations, the Brotherhood.
    Mr. Gosar. So my next question should be right along the 
line. In the case of the Islamic Relief USA, a chapter of the 
Islamic Relief International that pays 20 percent of its income 
to Islamic Relief International, it has received at least 
$700,000 in Federal funds, and when accounting for various 
umbrella groups possibly much more. Should U.S. tax dollars be 
barred from going to such organizations?
    Dr. Jasser. I believe once you designate the Muslim 
Brotherhood in Egypt and many of the offshoots I talked about, 
name Muslim Brotherhood as a terrorist organization, then you 
can do the same thing to Islamic Relief that you did to the 
Holy Land Foundation because Hamas is a terrorist organization. 
But because they are funneling money through third parties that 
are not designated as terrorist organizations, they get away 
with.
    So the short answer to your question is, yes, we should 
stop giving them money. But you can't do that until you 
designate the Muslim Brotherhood a terrorist organization.
    Mr. Gosar. I thank the gentleman. I yield back.
    Mr. DeSantis. The gentleman yields back.
    The chair now recognizes Mr. Comer for 5 minutes.
    Mr. Comer. Thank you, Mr. Chairman.
    My questions will be asked to the first three gentlemen on 
the panel.
    Ambassador Benjamin testified that most Muslim Brotherhood 
affiliates support democracy and renounce violence. Is that 
true?
    Mr. Fradkin. No. I don't think so. What has been true is 
the issue of violence as far as the Brotherhood is concerned, 
going back to the beginning, was a tactical question. Was it 
useful at any particular stage to use violence to advance their 
goals? And al-Qaida has no doubt that violence is good, but the 
Brotherhood sees it otherwise, but as such, there is no 
repudiation of violence, and that is is just--there is no such 
statement in the historical record.
    Ambassador Benjamin. Of course there is. The Egyptian 
Brotherhood has formally adjured violence in the 1990s.
    Mr. Fradkin. No, no. You said in your testimony they 
adjured it in the 1960s and 1970s when they----
    Ambassador Benjamin. No, I didn't say that.
    Mr. Fradkin. And they did--it says that--what the past was. 
In the 1960s and 1970s, they were in prison, so they had no 
option to exercise violence.
    I am not saying that they are for it, you know, in a big 
way, but it's just not true that, A--and this is the flip side 
of the assertion--the flip side of the assertion is that they 
are interested in entry into a normal, moderate politics, and 
that also is not true.
    And in the case of the Egyptians, they thought--they took 
what they could get under Mubarak, under Sadat. And then when 
they thought they had bigger opportunities, they went in a 
different direction.
    I want to, if I may, this brings up to the question--or an 
observation that Congressman Lynch made earlier that the 
question before us has always to do with action, terrorist 
action and violence. And it's important to focus on that, 
because that's the way in which we conceive of the threat and 
also the way in which our laws are written. And that's terribly 
important, but to some degree, and I agree with you, 
Congressman Lynch, that's the way in which we first have to 
approach the issue.
    The problem is, it does skew the discussion insofar as it 
suggests that those who are not immediately active in violence, 
or even if they've, you know, eschewed violence, as Ambassador 
Benjamin asserts, are the parties to be worked with, the 
parties that are useful for interaction. And this is a 
continuous tendency. Once you've sort of made the distinction 
between the Brotherhood and al-Qaida, you say, okay, these are 
the guys we can work with. And it was worthwhile having the 
experiment, perhaps, but we have had such experiments, and they 
haven't worked.
    Mr. Comer. Thank you.
    Mr. Schanzer. Congressman Comer, thank you for the 
question. What I would say is that in each of the cases that we 
look at around the Middle East, these groups have been shaped 
by their environments. So if they operate under a repressive 
regime, they are often left with no recourse but to recognize 
the regime and to renounce violence. They are more than willing 
to engage in the democratic process, but there's really nothing 
in their creed, all right, which is ultimately the dogma that 
they all adhere to at their core, that suggests that they have 
given up violence as an approach or that they've embraced 
democracy.
    So I think we just need to remember that they have been 
forced into making a lot of these decisions over time. Whether 
they are organically going to remain there, I think, is another 
question entirely.
    Dr. Jasser. And if I can add, I think to take what one or 
two Muslim leaders that happen to be sitting with Americans at 
the time and telling ambassadors what they think they want to 
hear is one thing, versus what they're actually telling their 
own people.
    And when the supreme guide of the Muslim Brotherhood in 
2010, decades after the so-called change of approach towards 
violence, tells his leaders that he is telling them that the 
best goal is to attain death and sacrifice through a jihadi 
generation against the U.S. and against the Zional-American 
conspiracy, that is a jihadi call to arms. And that was in 2010 
at the same time of, you know, with al-Qaida and other groups, 
so it sounded very similar.
    And I think basically we're hearing from some leaders that 
we should just continue a whack-a-mole approach to the Muslim 
Brotherhood program rather than actually treating the primary 
central organization as being a terrorist organization based on 
its ideology.
    And, by the way, if the antiviolence approach to them is 
true, we would be able to find rifes of theological, you know, 
disagreements with the Brotherhood's approach, their logo would 
have changed, all these things would have changed. None of that 
has happened. They're just telling a few ambassadors when they 
meet with them what they want to hear so that we don't 
interfere in their business in taking over various countries.
    Ambassador Benjamin. If I may, sir, my points are largely 
being distorted here.
    First of all, there's no legal basis whatsoever for 
designating the Brotherhood on the basis of ideology. Terrorist 
designations are done on the basis of violent act.
    Mr. Fradkin. Right.
    Ambassador Benjamin. That's it. So for Dr. Jasser to talk 
about designating the Muslim Brotherhood is absurd.
    Dr. Jasser. Well, what percent of them should be violent 
suicide? And answer is 10, 20, 80 percent? What percent?
    Ambassador Benjamin. You have to identify individuals and 
you have to identify groups that are carrying out these acts, 
and that's how the law works and that's how the State 
Department works and that's how we have worked throughout.
    And if we get into the business of deciding that a group 
should be designated because we don't like its ideology, first 
of all, we're contravening our own values in terms of freedom 
of speech and of discourse and we're undermining our own 
interests.
    The United States Government has espoused the belief for 
many, many decades that anyone who participates in the 
democratic process honestly, and so far as we can tell, and 
this is based on both intelligence and on the basis of their 
statements, that we ought to talk to them. That is what 
engaging with them means. It's doesn't mean that we are giving 
them money, it doesn't mean that we're giving them any 
benefits. We are talking to them, and that is it.
    And socialization through those processes typically, but 
not always, has positive effects. And we might have actually 
had a worse experience with Mr. Morrissey if we had not known 
the Muslim Brotherhood at all before, and we might have had a 
better experience had we had a more robust dialogue with the 
Muslim Brotherhood before.
    And it's important to note that the reason that we did not 
have a more robust dialogue was because autocratic leaders 
prohibited us from doing so in their country, and the cycle of 
repression and rebellion will go on as long as we are always 
beholden to those autocrats.
    Mr. DeSantis. The gentleman's time has expired.
    The Chair now recognizes the gentleman from Tennessee, Mr. 
Duncan, for 5 minutes.
    Mr. Duncan. Thank you very much, Mr. Chairman.
    I'm sorry I had to be over on the floor, so I didn't get to 
hear your testimony. And I really know very little about this 
particular issue, and I read that the Muslim Brotherhood has 
affiliates in 70 countries.
    How many members are there? How many people are there in 
the Muslim Brotherhood all together? Does anybody know?
    Mr. Fradkin. I don't know. No.
    Mr. Duncan. Yes. Ambassador?
    Ambassador Benjamin. We don't know. No one has a global 
figure, but it's in the millions.
    Dr. Jasser. Well, they won an election in Egypt. So they 
did that by having initially 20 to 30 percent of the vote and 
then they won a runoff against the former intelligence 
operation for Mubarak.
    So, you know, in various countries, they can swing 20, 30 
percent of the active Islamists, which are 30 percent of the 
population. So politically they're a large group.
    Mr. Duncan. Well, I understand that at least the first 
three witnesses here think we should designate. Is that not 
correct?
    Mr. Schanzer. Not correct.
    Mr. Duncan. Oh, okay. So of the people who are in the 
Muslim Brotherhood, what percentage do you think are violent or 
advocate violent activities? Does anybody have an opinion about 
that?
    Mr. Schanzer. Congressman Duncan, in my testimony, I did 
note that there are a number of organizations that have already 
been designated: Hasm, Liwa al-Thawra, Hamas. I suggested two 
others, one in Libya, another one in Yemen, where I think we 
would probably see evidence that would meet the criteria, which 
is a fairly simple criteria when you look at the Treasury 
designation process in particular. The State Department's a 
little bit more fuzzy.
    And then I think, you know, from there, we need to think 
about targeting violent individuals within the factions that 
are officially nonviolent or are taking part in the process, 
because we know that there are more hard line members within 
each of these factions, those that support violence, those that 
don't. So this needs to be a targeted process across the board 
according to our criteria of designation.
    Mr. Duncan. Okay. But do we have an opinion as to--I mean, 
is it a very small number or percentage of the people who are 
in the Muslim Brotherhood that would be considered violent or 
prone to violence?
    Ambassador Benjamin. Very, very small.
    Mr. Duncan. Very small.
    Dr. Jasser. Congressman Duncan----
    Ambassador Benjamin. Very small. Certainly those who have 
actually been involved in violent activities, it would be 
significantly less than 1 percent. Those who have joined 
splinter groups, that's another matter, but those splinter 
groups tend to be small.
    You know, one of the things that is somewhat problematic 
about this panel is that, you know, the vast scholarly 
literature on the Muslim Brotherhood emphasizes that the 
overwhelming amount of energy in the last 2 decades has gone 
into the creation of political parties, which are by definition 
opposed to carrying out violence. Okay?
    It is true that the Muslim Brotherhood historically has 
been a group from which splinters or sparks have been thrown 
off, and those people have become more violent. Al-Qaida, the 
original al-Jihad group, those people were originally 
influenced by the Muslim Brotherhood and then became more 
radical.
    But the Brotherhood itself, as far as we know, and 
certainly this was the state of the intelligence when I left 
the government, there are no major entities of the Muslim 
Brotherhood, setting aside Hamas, which is a special case and 
may not even be considered by some people to be Brotherhood, 
that are committed to violence.
    Dr. Jasser. Congressman, there's a very----
    Mr. Duncan. Let me just say this. You know, I've been here 
a long time. This is my 30th year. I was here for the first 
Gulf War, which I voted for, because I heard all of our top 
leaders say that Saddam Hussein was the greatest threat since 
Hitler and they talked about his elite troops, and then I saw 
those same elite troops surrendering to CNN camera crews and 
empty tanks, and so I became kind of skeptical about some of 
these things. And so when the second Gulf War rolled around, I 
ended up voting against it because I thought too many of our 
leaders were too eager to go to war to prove they were the new 
Winston Churchills or prove they were great leaders.
    And so I've felt for a long time that it's been a very sad 
thing that we have sent so many young Americans to fight what I 
thought were very unnecessary wars. And I also noticed that 
many of the people or groups that we are talking about how 
great these threats were were people or groups that were going 
to get money, and that these threats seemed to be more about 
money and power than they were about any great threats.
    But I see, Dr. Schanzer, you wanted to respond to the 
ambassador, so go ahead and respond.
    Mr. Schanzer. Yes. Look, what I would say is that I don't 
know where that number comes from that it's 1 percent or 5 
percent or 10 percent. It's not like, you know, we're looking 
at poll numbers coming out of the Muslim Brotherhood where 
people are calling their homes and saying, ``How many of you 
are radical?,'' and they're openly admitting to it, right? I 
mean, we don't know exactly what the numbers look like within--
--
    Ambassador Benjamin. I said this was the number of people 
involved in violence.
    Mr. Schanzer. What we can say, though, is that when we look 
at radicalization, we have to look at those that go to the 
battle fronts, that's number one. And we do see a good number 
of people who were former Brothers that have gone on to join 
groups like al-Qaida and the Islamic State.
    But also, when you look at the criteria, the Treasury 
criteria, I'm a former Treasury terror finance analyst, we look 
at basically four criteria. One is, are organizations owned or 
controlled by a terrorist organization, are the individuals 
members. That's number one. That's obvious.
    Number two is financial support. That is the same, in the 
view of law, as engaging in violence itself.
    Another is technical support and then another one is 
material support.
    These are the criteria that we need to look at what when we 
assess Brotherhood groups and individuals. And I think we'll 
find that it's not 1 percent, but it's also not 50 percent. 
There is some fuzzy math in there. I don't know how we'll ever 
get to it, but there is a problem within the Brotherhood. We 
know that for a fact.
    Dr. Jasser. And if I could add just one thing, Congressman.
    Mr. Duncan. Sure.
    Dr. Jasser. These mental gymnastics and confusions that 
you're having is exactly what the Brotherhood wants to happen, 
by dividing themselves into secret committees that push forth 
violent arms and other committees that use political processes 
to come to power. They use liberation theology to basically 
advance, no different than a Nazi party would or other Fascist 
arm would, and they use militant arms and then claim denial 
when they are pushed by more moderate democracies like 
ourselves.
    So at the end of the day, that wing, if it truly has--they 
might eschew violence on the one hand; on the other hand, they 
have never condemned openly those arms of their organizations 
or ever taken ownership of having sprouted those ideas and 
legitimized those factions of terrorist organizations.
    Mr. Duncan. All right. Thank you very much.
    Thank you Mr. Chairman.
    Mr. DeSantis. The gentleman's timed has expired.
    The Chair now recognizes the gentleman from Georgia, Mr. 
Hice, for 5 minutes.
    Mr. Hice. Thank you, Mr. Chairman.
    Listen, whether the number is 1 percent, 5 percent or, as 
you mentioned, up to 50 percent, the question and the issue, as 
we all know, it doesn't take but a small number of radical 
terrorists to create an enormous problem around the world 
wherever they may strike.
    So with that in mind, Mr. Jasser, let me begin with you. 
How important a role does violent jihad play in the Muslim 
Brotherhood ideology?
    Dr. Jasser. Well, I think it's central. And they might 
condemn certain tactics here or there, but at the end of the 
day, their model has remained advocating for violent jihad, 
their ``be prepared'' passage from the Koran is simply a battle 
that they use as their rallying cry. So at the end of the day, 
they are a jihadist organization that believes in the technique 
of violence as one of the avenues to be used.
    Mr. Hice. Okay. So let's look at an example of that. How 
did the Egyptian Muslim Brotherhood treat religious minorities, 
say, Coptic Christians?
    Dr. Jasser. I was there in 2013, and they committed, and 
their leaders and imams, called for acts of violence upon 
Christian communities, upon the Coptic community. And while 
there may have been some debate here or there, there was 
impunity given to various Islamist leaders that called for 
those acts of violence. And especially after they lost power in 
2013, it became no holds barred, and it's been that way since.
    Mr. Hice. All right. So let's bring it closer to home. What 
kinds of activities does the Muslim Brotherhood engage in here 
in the United States? Do we know what's happening here or what 
kind of plans? What can you tell me about that?
    Mr. Schanzer. Look, I have to say, I'm not an expert on the 
Muslim Brotherhood here in the United States. I've been more 
focused on the splinter groups and affiliate groups abroad, but 
what we can say is certain groups have been involved in terror 
finance cases. We have seen examples of this. The Holy Land 
Foundation, for example, is sort of a famous one. That was an 
organization that was providing $12 million to Hamas over the 
course of about a decade, and the Muslim Brotherhood group CAIR 
was an unindicted coconspirator in that case. It had an 
unspecified role in that case.
    So we have seen examples of this in recent history, but 
again, I think the important thing to note here is that, you 
know, we need to see a certain criteria in order to designate 
them. In some cases we just might see examples of troubling 
behavior. And this is where I think we need to--you know, with 
all respect to all of my panelists--we need to be looking 
simply at the criteria, not how troubled we are about a certain 
ideology. We need to be--look, there is a criteria in the U.S. 
Government for designation. We go after those groups in the 
U.S. that are in violation of our law and we continue to watch 
those that may be exhibiting some troubling behaviors.
    Mr. Hice. Okay. Thank you. But by your own admission, 
you're not an expert of this in the United States.
    Dr. Jasser, let me go back to you. What other radical 
Islamic movements outside of the Muslim Brotherhood should we 
be concerned about here in the United States?
    Dr. Jasser. Well, it's interesting, actually. If you look, 
for example, at the Khomeinists, Hezbollah, Hezbollah was 
designated a terror organization. We had sanctions against Iran 
for decades. That's one of the reasons there haven't been as 
many acts of Shia-inspired radical--it's not because the 
Hezbollah or the Khomeinists in Iran love America, they chant 
``Death to America'' all the time, but the sanctions and the 
inability to fund and build mosques like the AKP now is 
building in Maryland and elsewhere, like the funneling of money 
from Saudi Arabia--I mean, up until just a few months ago, 
Saudi Arabia was actually intimately involved in this threat of 
the Brotherhood into Europe and in the West.
    So if you look at our own national security incidents, San 
Bernardino, the Boston bombing, Al Awlaki. Al Awlaki came 
through the Muslim Student Association, which was part of the 
mother ships of the Muslim Brotherhood history progeny here in 
the United States that then evolved. Now, Al Awlaki then left 
the Brotherhood ideology to become a Salafi Jihadist and join 
al-Qaida and go to Yemen, but that revolving door of ideology, 
if you look at the radicalization of a lot of Islamists in the 
United States that go from the conveyor belt of nonviolent sort 
of political antiAmerican, antiSemitic political Islam that go 
towards radicalization, it often starts with Brotherhood legacy 
groups in America.
    And I'll tell you, the Syrian American, the Syrian American 
Council is one of the central parts of that. Its own leadership 
has said its affiliation with the Brotherhood in Syria is one 
of the reasons the United States ended up funding a lot of 
radical Islamist groups, including Jabhat al-Nusra, Ahrar al-
Sham, and other radical groups in Syria, because of Muslim 
Brotherhood sympathizers in the United States that told them, 
``Oh, they're okay,'' and you can find it by doing research, by 
looking at their Facebook, social media posts that sympathize 
with those groups in Syria.
    Mr. Hice. Thank you. Could you provide this committee with 
a list of all those?
    Dr. Jasser. Absolutely. It's in my written testimony that 
was submitted, sir.
    Mr. Hice. Okay. All of them?
    Dr. Jasser. Yes, sir.
    Mr. Hice. Okay. Thank you.
    Ambassador Benjamin. If I may, Mr. Hice, I believe just to 
expand on Dr. Schanzer's testimony, there hasn't been a 
prosecution in the United States of a Hamas affiliate since the 
Holy Land Foundation.
    Is that correct, Jonathan?
    Mr. Schanzer. No, I don't believe there has been.
    Ambassador Benjamin. And that that was in the late 1990s?
    Mr. Schanzer. That was early 2000s, 2008.
    Ambassador Benjamin. Okay. Early 2000s.
    My point being simply that the Department of Justice and 
the Treasury Department are watching potential terrorist 
activity, and the FBI, of course, very, very vigorously. And I 
think that the paucity of prosecutions tells a very important 
story about the lack of activity going on in the United States 
at this time.
    Mr. Schanzer. I'd like to respond to that for just a 
moment, because I don't think that that actually captures the 
full picture.
    There has not been a designation of a U.S. charity here in 
the United States since 2009. Okay? What it means is, is that 
we have a problem with the system, that we are not looking at 
charities, we're not looking at the nonprofits that could be in 
violation of our laws.
    I actually believe that during the Obama administration, 
not to make this political, but during those years, the fact 
that we did not have a designation to me is very troubling, 
because I don't believe that there was no terror finance 
activity coming out of the U.S.
    So that does not exonerate the Muslim Brotherhood. To me it 
seems as if the system was not working for the last decade, and 
I'm hoping that we get to see a reinvigoration of that system 
now.
    Mr. Hice. Thank you for that answer and I agree. I yield 
back.
    Mr. DeSantis. The gentleman's timed has expired.
    The Chair now recognizes the gentleman from Wisconsin for 5 
minutes.
    Mr. Grothman. Thank you. I'd like to thank you all for 
being here today.
    Ambassador Benjamin, I'll start with you. You're affiliated 
with the Brookings Institution. Is that correct?
    Ambassador Benjamin. I'm a nonresident senior fellow there.
    Mr. Grothman. Okay. I'm not sure how familiar you are with 
the inner workings of the Brookings Institution, but are you 
aware they've taken almost $15 million from the Qatari 
Government?
    Ambassador Benjamin. I am aware that Brookings has a center 
in Doha and that it has, like many other institutions in the 
United States, accepted funds from foreign governments, 
including Qatar.
    Mr. Grothman. Okay. Do you know why Qatar would be funding 
the Brookings Institution or why they would find it of interest 
to give them $15 million?
    Ambassador Benjamin. So I don't want to speak for the 
institution. I know, because I have participated in it, that 
Brookings hosts, or cohosts, an annual Islamic World Forum, 
which is held, I think, half the time in the United States, 
half the time in Qatar, and brings distinguished speakers from 
all over the world to talk about issues of common interest.
    And as I said before, Brookings has a center in Doha where 
it carries on scholarly activities much like those that it 
carries on here.
    Mr. Grothman. Okay. A fellow at the Doha center, this is 
what I'm trying to come around, someone named Saleem Ali, was 
quoted as saying, in The New York Times, if you can believe The 
New York Times, there was a no go zone when it came to 
criticizing the Qatari Government, and the Members of Congress 
using Brookings reports on Qatar should be aware they're not 
getting the full story.
    Do you feel that by accepting $15 million, it colors at all 
the view of the Brookings Institution when it comes to talking 
about Qatar and therefore the Muslim Brotherhood?
    Ambassador Benjamin. I worked at Brookings before going 
into the Obama administration. I was the director for the 
center on the U.S. and Europe. We accepted grants from the 
European Union, among others. And I have the highest regard for 
my fellow scholars at Brookings and believe strongly that their 
views are not influenced by the sources of their funding, in 
much the same way that their views are not influenced by the 
corporate funding, which is another frequent source of funding 
at Brookings and throughout the think tank world, or from 
foundations, whose leadership may have particular views, but 
those views are not imposed upon the scholars. And the think 
tanks generally in Washington work very hard to avoid having 
the views of their donors appear in their reports.
    Mr. Grothman. I don't know how big Brookings is, $15 
million just hits me as kind of a large sum of money.
    And I just wondered, can you speculate on what motive the 
Qatar government, which is sponsoring the Muslim Brotherhood as 
well, what motivation they would have in giving such a large 
contribution to Brookings?
    Ambassador Benjamin. In my dealings with the Qataris, which 
has been quite extensive, I know that they are interested in 
building dialogue between the United States and their country 
and the Muslim world more broadly. And, you know, we see this 
in many other contexts as well. You know, probably the biggest 
contributor to the think tank world is Norway.
    I see no reason to impute any ill intentions to the Qataris 
here, nor would I to the many think tanks that are receiving 
money from the UAE or from the Saudis, whose, you know, 
opposition to the Muslim Brotherhood is very well known right 
now, even if in, particularly the Saudi case, it's been 
anything but consistent.
    Mr. Grothman. Okay. I'll ask either one of the other of 
you, it's been implied by Mr. Benjamin that the Muslim 
Brotherhood is just kind of an umbrella name and there's not a 
lot of coordination between the Muslim Brotherhood in one 
country to another. I'd ask you to comment on that in general, 
whichever one of the other three wants to comment.
    Mr. Fradkin. I can say a little bit about that. I think 
that originally there was a good deal of coordination and 
there's a desire for there to be such. Over time, it's been a 
mixed picture. For a very long time, the other Brotherhood 
chapters looked to the Egyptian chapter as the founding 
chapter. They still cooperate. In the context of the 2011 Arab 
revolts, people went from Egypt to Tunisia to consult with 
their Brotherhood chapter. Actually, the Tunisians recommended 
that the Egyptian Brotherhood be a little bit more restrained. 
It was good advice, which they didn't take. And there is that 
kind of thing.
    Because of the situation that was referred to before by 
Jonathan Schanzer, it's harder for them to coordinate, but they 
will be looking to coordinate. And one of the issues, one of 
the relevant considerations, is where they will coordinate 
from.
    Qatar is one place, because they do support the Brotherhood 
and they provide, in particular, support for Al Jazeera, which 
is a platform for the most significant Brotherhood cleric, al-
Qaradawi, but I think actually more important in the near 
future is going to be Turkey, because Turkey is a much bigger 
country, it's a more powerful country, and it has the wind in 
its sails now, or its president does. And I think it's pretty 
clear he's acting as if he is going to be the godfather to the 
Brotherhood. He's provided a safe haven for many of the 
Egyptians who had to flee, Brotherhood and others.
    And what exactly he will do or what they will do under his 
auspices, I don't know, but because of the character of Turkey 
and the fact that the government is so completely under the 
control of its president, there is much greater opportunity in 
the future for coordinating action, I would say.
    Mr. Grothman. Thank you. I believe my time is up.
    Mr. DeSantis. The gentleman yields back.
    I want to again thank our witnesses for appearing before us 
today. The hearing record will remain open for 2 weeks for any 
member to submit a written opening statement or questions for 
the record.
    And if there's no further business, without objection, the 
subcommittee stands adjourned.
    [Whereupon, at 11:35 a.m., the subcommittee was adjourned.]


                                APPENDIX

                              ----------                              


               Material Submitted for the Hearing Record
               
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]              
               

                                 <all>
</pre></body></html>
